$upre
V

No 20 -(j>Z°l

AUG 12 2020
office o

^clfrk

IN THE
SUPREME COURT OF THE UNITED
STATES
Petitioners
In Re: Janies Beggs and Joyce Beggs
“Ex Parte of “Said Child”
“Ex Parte of “Said Veteran”
Vs
Cunningham Linsey et al
Extraordinary Writ of Habeas Corpus
Ad Faciendum Et. Recipiendum

From USCA4 19-1859
On Petition for Civil Action No. 4:17-cv-110AWA-DEM Appealed from The United States
District Court of Virginia at Newport News
On Petition to From the Virginia Beach Circuit
Court System and No: CL16004672-00.
On Petition Hampton Circuit Court
NO: Case 97-36817
Pro’se James Beggs
Pro’se Joyce Beggs
312 South Willard Ave
Hampton, Virginia 23663
757 265 7784

NOV -6 2020

Questions Presented
Whether Females Officers of the Court,
deprived a Veteran of continued Mental Health
Care from a War Zone under President Obama &
Trump Executive Orders 13625 by Conspiracy
Under Title 18, U.S.C., Section 241 & 242.
Whether Officers of the Court who voided
Petitioners Military Power of Attorney of a
Veteran and his Military Service Medical Records
from a War Zone, violate the National Defense
Authorization Act of intelligence Matters.
Whether Plots of Parental Alienation and
Fraud on the Courts used to undermine a Sick
Veteran in a Sham Plea Deal in Bad Faith can be
reviewed under Federal Ride of Evidence Rule 60.
Whether Private Respondents from three
different Court Systems Conspired against A
Black Republican and her Family by Conspiracy
under U. S. C. 42 Section 1983, Title 18, U.S.C.,
Section 241 & 242 void all Petitioners State and
Federal Constitutional Rights under Title VI, 42
U.S.C. of the Civil Rights Act of 1964
Whether Insurance Companies needs to work
with Congress on Civd Rights Reforms to stop
Domestic Terrorism plots suffered by Petitioners
to Bring Forth Social Justice Protections for Black
Americans and all Poor Americans.
Do Black Republicans who suffer Plots under
Title 18, U.S.C., Section 241 and 242 need
Protections under Domestic Terrorism 18 U.S.
Code § 2331. Act to protect We the People.

TABLE OF CONTENTS
Question Presented
........ Page i
Disclosure.............
Page ii, iii
.......Page iv
List of Parties.........
List of Courts.........
...... Page v
........ Page vi
Cited Cases............
Constitutional and Statutory Provisions.Page vii
Other Party and Courts Awaits U. S. Supreme
Court Discretion
Page viii
Table of Appendix...................... Page ix, x
Table of Authorities Cited Case ......Page-vii
Statement of Case..................... ........ Page 1
Jurisdiction Statement............ ....Page 3
Destroying Federal Evidence
7
Reason for Granting Writ Embracing Civil Rights
Under Dillion Rule
Page 9
Page 12
Fats of the Case__
Justice Potter Stewart Major Contribution to
Criminal Justice & Civil Rights
Page 15
Private Conspirators.................
Page 18
Severe Conflict of Interest.........
..Page 19
Extraordinary Aid for Appellate Review under
USSC Rule 20
Page 21
The Cause of Action for Extraordinary Relief for
Irreparable Damages 20
Page 25
Actual Damages Responsibility for Cunningham
Linsey et al...............................
Page 29
Protecting the City of Newport
....Page 31
Prayer For Relief......................
Page 32
Conclusion.................................
. .Page 36

m
Disclosure
“Protected under Homeland Security & “U S C
18 section 243” by the Late Senator Jesse, City of
Newport News under Virginia Governor Douglas
Wilder. Suffering retaliations by all Private
Conspirators from Virginia Beach in these
complex cases as Petitioners wrote a Letter to
Virginia Senator Mark Warner to take on the late
John McCain Military Bills before Congress that
included research on the Military Care Giver Act.
who is Loved by Native Americans across the
United States along with the Late John McCain
because of their Passionate Heart”.
Suffering Retaliations for help from Virginia
Governor Bob McDonald. Who helped Petitioners
understand the Virginia Governor’s Office were a
separation of powers from Civil Litigation, who
was destroyed before Petitioners couse answer his
letter from learning of their son injures m
Afghanistan.
With Petitioners Suffering Domestic Terrorism
from Private Conspirators for over 20 years
misunderstanding of her Research on Contraband
Slave and Major Robert Butler who gave her
Great Grand Father his first teat of freedom from
Fort Monroe.

IV

LIST OF PARTIES
All Parties do not appear in the caption
Petitioners
• “Said Child” Lauryn Beggs Infant Petitioners
having Joint Legal Custody and Visitation.
• “Said Veteran” Cornelius Beggs Petitioners has
Federal Military Power of Attorney.
Respondents
1 Private Respondent - Attorney Paulette D.
Franklin- Jenkins. A Former Employee from
Virginia Beach City Attorney Office with
Christiana R. Dougherty-Cunningham showing a
“Conflict of Interest”, “Currently Employed at
Tort Claim Unite Naval Station Norfolk, First
Attorney for Respondent Beverly Story”.
2 Private Respondent - Attorney Asha S. Pandya,
A Non-Interested Party
Court Appointed
Attorney for “Said Veteran” Without Notifying
this Court of Non-Interested Status.
3 Private Respondent-Attorney Cynthia King.
4 Private Attorney Afshin Farashahi - CourtAppointed for “Said Veteran” Trusted with Said
Veteran” Federal Medical Record from VA.
Virginia Beach Circuit Court Commonwealth Vs.
Cornelius Bobbitt-Beggs”
5 Respondent State Farm Insurance Company &
Home Paramount Pest Control INC. Cl 97-36817
6 Respondent American Banker Insurance
Company of Florida d/b/a Assurant, Respondent
Geico Insurance Agency, Respondent
Cunningham Lindsey U. S. LLC No: 4:17-cv00110 District Court of Newport New in Norfolk

V

LIST OF COURTS
On Petition to From the Virginia Beach
Circuit Court, No: CL16004672-00.
Denied in
the U. S. Supreme Court Writ of Certiorari Case
No: 19-1095. And the Virginia Beach Circuit &
Juvenile and Domestic Court Lauryn Beggs, No:
JJ216264-01-00 & 02-00 No: JJ216274-04-00 &
05-00, Case No: CJ17-63 Minor Case. Voiding
Emergency Custody July 20, 2016. Denied on
March 23, 2017. Petitioners Notice of Appeal was
wrongly filed Late “Clerical Error” without 10
days weekend Filing planned by Conspirators.
On Petition Civil Action No. 4:17-cv-110-AWADEM from United States Newport News District
Court of Norfolk Appealed to Fourth Circuit Case
No. 19-1859 for Respondent Americans Bankers
Insurance Companies, Respondent GEICO
Insurance, Respondent Cunningham Lindsey U.
S. LLC
On Petition to the Hampton Circuit Court Cl 9736817, 97-37341, ending in USSC No: 06-931 &
No.02-5307

VI

Cited Cases
Abraham Lincoln Proclamation
Page 9
Brown V. Vasquez 952 F ,2n 1164, 1166 (9th Cir.
Page 35
1992)
Bulloch v. the United States, 763 F.2d 1115,
Page 13
1121 (10th Cir. 1985)
Dovel v. Bertram, 184 Va. 19, 22, 34 S.E.2d 369,
Page 35
370 (1945)
Ex parte Merryman, 17 F. Cas. 144 (C.C.D. Md.
Page 23
1861) (No. 9487)
Ex parte Grossman, 267 U.S. 87 (1925).Page 16
Griffin v. Breckenridge 403 U.S. 88 (1971)
.......................................................... Page 16
Haddle v. Garrison, 525 U.S. 121 (1998)
...............................................Page 19, 30
Jefferson v. Gallagher, 56 Okla. 405, 150 P.
Page 35
1071
O’Sullivan v. Boerckel, 526 U.S. 838, 845 (1999)
....................................................... Page 35
Strickland v. Washington, 466 U.S.668 (1984).
...............................................................Page 16
United States v. Ohio Power Co., 353 U.S. 98
Page 19
(1957).
Visikides V, Derr. 3 Va App 69 (1986). Page 12
USSC Record NO: 06-931, In-Re Patterson-Beggs
....................................................................Page 6
USSC Record No: 02-5307 In Re Patterson-Beggs
....................................................................Page 6
United States v. Harris, 106 U.S. 629 (1883)
....................................................... Page 12

vn
Constitutional and Statutory Provisions
Involved
Article III of the United States Constitution
Americans with Disability Act: for Petitioner
Joyce Beggs Dyslexia.
Title VI of the Civil Rights Act of 1964: Non­
discrimination.
Executive Order 13625 of President Obama &
President Trump 2012-2020 Mental Health Care
for Veterans
Federal Rule of Evidence Rule 60. (l)(2)(3)(d)1.3.
Senator John McCain Veterans Community Care
and Access Act.
Senator Mark Warner, Veteran Caregiver Act of
Congress Signed by President Trump President
Trump Proclamation for Veteran Month 20172020.
President Bush Patriot Act
United States Constitution-Fifth Amendment,
Sixth Amendment, Eighth Amendment, Ninth
Amendment, Fourteen Amendments
U. S. C. 10 1044b Military Powers of Attorney.
Uniform Transfers to Minors Act
Uniform Gifts to Minors Act
U.S.C. 18 § 241.Conspiracy & Section 242,
U.S.C. 18 371, U. S. C. 2101 (E), U.S.C. 28
Section 2254(b)(1)(B), U.S.C.28 § 2254 - State
custody; remedies in Federal Courts,
U.S.C. 42 section 1983, U.S.C. 42 U.S. section
1988.

vrn
Party needing Court Discretion
1. Private Respondent Beverly Story
2. Private Home Paramount Pest Control
3. Beth Roberts of Respondent GEICO
Insurance Agency
Other Court involved
On Petition to James Beggs & Joyce Beggs
Vs. Beverly Story Virginia Supreme Court
180637 “SCR Case Type Mandamus” entered
5/11/2018 denied 2/14/2019
On Petition James & Joyce Beggs Vs. Beverly
Story in No: 0054-18-1 Virginia Court of
Appeal Judgment. Denied 1/10/2018 over
Jurisdiction. Using their own Discretion send
to Virginia Supreme Court. Style Mandamus
Paulette D. Franklin-Jenkins No: 181525
James & Joyce Beggs Vs. Beverly Story
Entered 7/19/2018 Denied 2/14/19.

IX

Table of Appendix
1. Shows Petitioners Proof of Lost from Flooding
in 2015 with Home Valued at 189.802.52 still a
little too small, fixing only fix 1/4 of the cost of
Damages paying for most of the Flooding
themselves.
2.
Petitioners could not sign this Flooding
Document in September 3, 2016 grossly devaluing
the Petitioners Historical home to 45,932.90.
Federal Conspiracy, with only 371.86.
3. Petitioners could not sign major Flooding
Document from Hurricane Mathew in October 7,
2016, grossly devaluing the Petitioners Historical
home to 37,932.90 after fixing their home fast to
quality for Said Child. Federal Conspiracy.
4. Judge Aleen 19-page Court Order, making
Petitioners be responsible for legal Fees for
Respondent from the Fourth Circuit Court, having
a Conflict of Interest with Petitioners Church
Members, with not Financial Relief.
With no
funding from all Respondents from Virginia Beach,
Virginia. Taken care of Said Child and Flooding
with no Financial help. With 4-A shows water
front “Floodplain Property of 313 South Willard
Ave in Hampton Virginia flowing flood water to the
Petitioners home.
5.
Shows Conspiracy to Delete Historical
information removed from Petitioners Home that
dated the home being listed with the Town of
Phoebus.

Table of Appendix
6. Pictures on the Flooding in 2016 showing only
Petitioner Home underwater, with grass showing
on the Water front.
7. Shows 2 cell phone conversation July 4, 2016
showing severe stress of a Caregiver. Taking
caring Care of a "Sick Baby” and a “Sick Veteran”
as a single mother. Sending Pictures with his
head cut in half.
8. July 11, 2016 - With Petitioners sent baby
cloths and money to the Late Lysa Story to help
Retire her Mother “Respondents Beverly Story” to
stop yelling at “Said Veteran”. Witness before
leaving for an assignment in Hawaii; as they
promise to help her. Noticing the second Pictures
with their son head cut off. Trying to understand
her change of Personality. Very concerned!
9. Complaint to the Virginia State Bar about
Respondent Beverly Story First Attorney of
Record Privet Respondent-Attorney Paulette D.
Franklin- Jenkins. May 26, 2017
10. & 11. -Shows 2 Affidavits Severed on Male
Judges in the Virginia Beach" Court Systems
against the wishes of the Petitioners. Making
them falsely making the Respondents against
their own Constitutional Rights. As Petitioners
was focusing only on Conspirators.
12. Showing Kathleen Keffer is the Attorney for
Christianna Dougherty-Cunningham to Dismiss
Petitioners Mandamus Protecting Conspirators
13. Restraining Order for Attorney FranklinJenkins kept from Virginia Beach Judges.

1
Statement of the Case
The Petitioners Moves for an Ex Parte Petition
for the Emergency Release of their son “Said
Veteran” Cornelius Bobbitt, who added the Name
Beggs for his wedding plans before July 20, 2016
for the Late Lysa Story and “Said Child” wedding
plans along with an Ex-Parte of “Said Child”.
Giving full custody to Petitioners. Needing an
Extraordinary Writ of Habeas. As “Said Veteran”
and all Petitioners suffered ploys of Domestic
Terrorism for over 20 years. The Petitioners
Prayed; would stop after Congress passed
President Bush Patriot Act. As a weak vulnerable
Veteran of the United States is continuously
denied continued medical attention for severe
PTSD as conspirators voided a President
Executive Order 13625 from 2016-2020 to
continue Mental Health Care for Veterans from
War injuries suffered from Afghanistan by using
plots of Domestic Terrorism to destroy a Veteran
of the United States, his family and Petitioners.
Needing Jurisdiction from this Court to overturn
Virginia Beach Circuit Court No: CR17-001285,
OCA File No: VAB 16-05667 Court Order
“Commonwealth v. Cornelius Beggs. “That ended
in a Bad Faith Sham Plea Deal November 13,
2019 during Veteran Month. With all Petitioners
deprived of Liberty and Due Process. Citing ExParte Grossman, 267 U.S. 87 (1925).
By
Conspiracy in these complex cases by Female
Respondents under U S C 18 section 241 and 242
by misusing Virginia Beach Judges and a Federal
Judge as a tool to Violate the Laws of the United
States under Article III. Violating Acts of the U.S.
Congress as cited by Petitioners.

2

Willfully destroying the independency of
the Virginia Beach Judiciary System by Fraud on
the Court, Abuse of Power, Abuses of Process,
severe conflict of interest. Causing Irreparable
Damages to all Petitioners. Destroying “Said
Veteran” Military Records and Medical History
July 20, 2016 from Virginia Beach Police; to block
an FBI investigation. By maliciously using
“conspiracy on one accord”. That voided Senator
John McCain Veterans Community Care and
Access Act. Knowing said Act of Congress would
give Investigators proper jurisdiction over
community sharing information to deliver
continuous care for “Said Veteran” with proper
VA Finically support to “Said Child”.
A Timely Notice of Appeal was sent to the
Virginia Beach Circuit Court mailed December 1,
2019 by Petitioners having Military Power of
Attorney under U. S. C. 10 1044b of “Said
Veteran” deprived of his liberties, Due Process
and a speedy trial that violated the main
provisions of the Patriot Act that mandate
intelligent fact finding inside and outside of the
Virginia Beach Court Systems.
The Opinion of the Highest Federal Appeal
Court to review the last of many Complex Cases
was the United State Supreme Court Case No 191095 and Record No: 19-1859 from the United
States Court of Appeal for the Fourth Circuit
Entered Judgement on April 20, 2020. Denied
Rehearing Denied June 29, 2020 in fight of “all
New Evidences under USSC Rule 11 for just
Cunningham Linsey who change to LLC with no

3

objections from other Respondents. Needing this
Court Jurisdiction under Remedies 28 U.S.C.
section 1254 & 28 U.S.C. 1257 to overturn
Judgment in the Hampton Circuit Court and
Newport News Circuit Court of Norfolk Virginia
Jurisdictions with Punitive Damages from all
Respondents Companies and their Insurance
Companies in all Complex Cases to Bring about
Social Justice to Protect all Petitioners Life,
Liberties, Human Rights. To Safe Guard Virginia
State and United States Constitutional Rights
and Civil Rights of every Black Citizens Across
the United States to stop the Unrest in Black
Communities. Blocking malicious prosecution of
intentional abuses of process under 28 U. S. C.
Section, 2255(a)(b) & 28 Section blinding the Eyes
of Justice.
Jurisdiction Statement
Petitioners has Exhaustion all Federal and
State Court Remedies of Law over “Said Complex
Cases of Plots of terrorist actions under USC 18
Section 242, 241” to release “Said Veteran” from a
“Sham Plea Deal” by female Conspiracy that
violated Acts of Congress, A President Executives
Order from President Obama and President
Trump. Voiding guaranty liberties of all
Petitioners under the United States Constitution.
That falsely taking away “Said Veteran Parental
Rights” and “Human Rights to Freedom. Voiding
continues treatment for PTSD. Needing an
emergency release from a Sham Pleas Deal in ExParte under an Extraordinary Writ of Habeas
Corpus for Crimes against the Laws of the U S of
American.

4
As “Said Veteran” and his Family has suffered
over 20 years of cruel and unusual treatment that
can only be describe by “Petitioner Joyce Beggs to
the Lower Courts involved in all said complex
cases as “Civil Terrorism”. Until completing her
research after Petitioners took on Military Power
on Attorney of their son. As they learned about
their son War injuries from Afghanistan, and
treatment at the VA under U. S. C. 10 1044b.
With the Veteran Administration unable to
identify “Said Veteran” under the Names of Beggs
to complete his benefits. As Petitioners were
paying for “Said Child” medical expenses out of
pocket, after a year learning he was a missing
patient. As her medical condition were keep from
the “Eyes of the Virginia Beach Court System” to
justify giving a sick child to an elderly Senior
Citizen approaching the age of 80 to control her
estate and destroy the Petitioners. Showing said
conspiracy plots descriptions falls under the
Patriot Act as domestic terrorism. With female
conspirators blocked FBI from investigation July
20, 2016 Crime Scheme. Knowing “Said Veteran”
suffering from PTSD being Physical Evicted from
his sleep and saving his child. Knowing first
hand under the Patriot Act gives the FBI the
needed tools to learn “true facts” that “Said
Veteran” is a missing federal patient at the
Hampton Veteran Hospital to this present day
under the Name Cornelius Bobbitt. Blocked by
processual process an plots against Petitioners by
voiding their Human Rights, Liberties, under the
United States Constitutional Rights.

5
Whereas only this Honorable Court can Grant
said Extraordinary Writ of Habeas Corpus. As
Petitioners do not want Senator Mark Warner or
Virginia Bobby Scott or the Late Mary Christian
legacy to be destroy like Virginia Governor Bob
McDonnell. Who helped Petitioners understand
the Virginia Governor’s Office were a separation
of powers from Civil Litigation. Watching her
Governor destroyed by the same plots witness in
these said complex cases; unable to answer his
letter.
The United States Supreme Court has
complete overall Jurisdiction over said Complex
Cases from the Virginia Beach Circuit Court,
Hampton Circuit Court and the Newport News
District Court in Norfolk to spot Private
Conspirators malicious Abuses of Power that
violated the Patriot Act by Private Female
Respondents. To Order Respondents who are
Private Insurance Companies pay punitive
damage to bring forth Social Justice to stop
Irreparable Damages of Black Americans to stop
supporting their Agent and Clients Conspiracy
plots under the color of law. Stopping retaliation
against Black and Poor Americans; as suffered by
Petitioners that void Acts of Congress and
misusing Federal Programs to prolong suffering.
Needing this Honorable Court to be an Aid to
Petitioners heavy Military Jurisdiction to bring
forth Social Justice. To Protect the Bills of Rights
under the State of Virginia and the United States
Constitution from activities under USC 18 Section
241 and 242.

6

Suffering retaliation from USSC NO: 06-931
02-5307 as State Farm General Insurance Inc. &
Home Paramount Pest Control was responsible
for the actions of Bad Faith and Breach of
Contract with all case under Hampton Circuit
Court Case 97-36817. Petitioners has given notice
to all 3 Court System.
As “Said Veteran” Whom himself has
requested Virginia Beach Jail House Personal to
place him on the bottom bunkbed in fear of falling
while sleeping untreated by female conspiracy.
Suffering nightmares or fighting the War out in
his sleep with no medication. Using his Skills in
Art to help himself. As said Jail Personal were
unaware of “Said Veteran” severe PTSA or uses of
Conspiracy to suppress his Federal Records by
Female Respondents. Meeting the require for
adequate notice of Petitioners request for judicial
relief and an opportunity to be heard concerning
Domestic Terrorism her family has suffered for
over 20 years. To stopping Civil Rights Violations
and “Fraud of the Court and Conspiracies against
the Virginia Historical Court Systems by all
Respondents Actions that Voided Acts of Congress
against a Black Republicans like Petitioner Joyce
Beggs, and her family who are a Mixed-Race
Couples. Is truly a violation under Title VI of the
Civil Rights Act of 1964: Non-discrimination.
With Petitioner James Beggs a U. S. Veteran and
Petitioner Joyce Beggs U. S. Military Family
History in every World War; going back to the
Civil War as her Great Grand Father helped the
Union Army with his farming skills learn from
Native Americans.

7

As only the United States Supreme Court can
protect the United States Military from cell
placement under U. S. C. 18 section 241 & 242
from Privet Respondent-Attorney Paulette D.
Franklin- Jenkins as new employment placement
her in the Virginia Nary Department. As Staff
from the Virginia Beach Circuit Court would not
bring Petitioners Request of a Restraining Order
against Privet Respondent-Attorney Paulette D.
Franklin- Jenkins before the Courts to protect all
Petitioners and their Family Military Records.
Showing Female Conspirators used a Black
Female Attorney play out Domestic Terrorist
plots against a Black Republican to destroy her
family. With Petitioners unable to protect “Said
Veterans” Military and Veteran Medical Records
protected under Senator John McCain Veterans
Needing to
Community Care and Access Act.
stop Cruel and Unusual treatment and behaviors
under 28 U.S.C. 1257 of all conspirators from
affecting U S Military Bases from adding more U.
S. Citizen to join teams of conspiracy plotters
against “Said Veteran” and Petitioners.
Destroying Federal Evidence
Petitioners has Exhaustion of all State Court
Remedies 28 U.S.C. section 1254 that Voided all
Petitioners State and Federal Constitution
Rights. As all Female Respondents freely voided
Acts of Congress, and President Obama and
President Trump Executive Order 13625 for
Veterans. Needing United State Solicitor
Attorney General to handler said Crimes against
the United States in these complex cases on
behalf of Petitioners.

8
Producing the same Fraud on the Court by
terrorist actions of retaliation against Petitioner
Joyce Beggs and her children in Hampton Circuit
Court ending with USSC NO: 06-931. With State
Farm General Insurance Inc. responsible for
Actions of their Clients as Petitioners suffered
actions under Terrorism by past Respondents.
Voiding Petitioners City of Hampton Jurisdiction
under Virginia Code 63.2-1517 after the Virginia
Beach Police investigation on July 20, 2016 “Left”
While True
“Said Child” with Petitioners.
Federal Evidence of “Said Veteran” of the
following were concealed from Virginia Beach
Police, Media, Petitioners, and the FBI of a
Federal Missing Patient:
a. Said Veteran-Federal Military History in
Afghanistan.
b. His VA Medical information at his home
in Virginia Beach July 16, 2016.
c. c. Medications bottles from the VA with the
Name of “Cornelius Bobbitt” in his home in
Virginia Beach July 16, 2016.
As the Violent Pass and back ground of the Late
Liza Story were concealed from an FBI
investigators, Petitioners, and Media that same
day in Virginia Beach. With Respondent Beverly
Story giving the Petitioners bottle of medications
with the name Cornelius Bobbitt in 2017 during
Petitioners investigation of their son injuries in
Afghanistan. Showing Said Conspiracy Plots were
powerful enough to “concealed the truth” that said
Couple were handling Serious War Injuries from
Afghanistan and a Sick Infant.

9
Reason for Granting Writ
Embracing Civil Rights under Dillion’s Rule
Petitioners moving this court to have all
Respondents and their Insurance Companies in
these Complex Cases; to embracing Civil Rights
under the Dillion’s Rule. To bring about Social
Justice to stop plots of domestic terrorism against
Black Republicans, and Black Americans they
hate by destroys their family and children using
social media to destroy family. Showing Black
Life’s matters for Black Republicans as well. With
violations falling under the Patriot Act when
Conspirators plots to destroy Petitioners for over
20 years. Starting with case USSC Record NO: 06931, In Re Patterson-Beggs and along with USSC
Record No: 02-5307 In Re Patterson-Beggs; USSC
Record No: 06-809, USSC Record No: 6207, USSC
Record No: 06-809. With cases spit-up by
Petitioners own Attorney of Record creating many
cases they could not afford. Forcing Petitioner
Joyce Beggs to study the Law suffering with severe
Dyslexia as she tried to explain to the Hampton
Circuit Court that she was suffering from Civil
Terrorism inside and outside the Court of Law, as
neighborhood families seem to be assigned to her
family. Plotting against her children during legal
deadlines as suffered by Said Veteran”; but the
families were so nice. Thinking it was just bad
luck; as Petitioners Joyce Beggs took a Code Class
with her City to learn how to fix her own Historical
Home in 2009 being Deprived of Justice. As her
Classes started with the Dillon’s Rule: “to meet the
changing rules for changing times” while suffering

10
domestic terrorism that continued by Respondents
from Virginia Beach, starting July 20, 2016 with
plots falling under the Patriot Act by female
conspiracy before “Said Veteran” Attorneys of
Record were assigned. WHEREFORE Petitioners
Pray for Needed Extraordinary Appellant Powers
to restore the Phoebus Section of Hampton
surrounding Fort Monroe with the history of
Contraband Slaves, with Petitioners Neighbors
understanding her Research along with a Statue of
Major Robert Butler placed back in Federal Hands;
to dangerous for Petitioners to continue showing
Needing all
the Civil War never ended.
Respondent to Practice Social Justice as most
Black Families and poor families, Native
Americans cannot afford Attorney as shown by
Petitioners, as Black Families being moved off
their land for new development in a flood zone.
With this Court being an Aid to bring forth the
Dillon’s Ride to stop conspiracy plots that is
Domestic Terrorism under Homeland Security. As
Petitioners only felt free from strange terror plots,
by moving their family to the State of Kentucky in
2009. Starting back again in 2016 with the same
Feeling of “Terrorism” in these complex cases
affecting the safety of her children and Grandchdd
As “Said Veteran” was left in a room in the Court
House without the ability to help selected his own
Court Date, with his Attorney setting his Trial
Date on his Fiance “the Late Liza Story Birthdate”,
that caused emotional stress, and irreparable
damages during petitioners’ legal deadlines in the
Fourth Circuit Court with-out any notice to the

11
Petitioners. As Conspirators quietly laid out Plots
for a Sham Plea Deal. Causing Petitioners to
complaint to the Forth Circuit Court in her legal
papers about “Said Veteran” in this case along
with New Evidence that combine all Respondents,
allegedly tied together, connected to each other
under 42 U.S.C. section 1985 & U.S.C. 18 section
241 and 242.
Realizing as a Military Family and the World
misunderstood Colin Kaepernick's silent protest.
Realized “Said Veteran” was the victim
Kaepernick’s was standing up for; that violated
the Six Amendment, his Civil Rights, and Due
Process, denied by his own attorney of record
suffering possible treats by female conspirators.
Showing the new legal word Petitioners used
for over 20 years of “Civil Terrorism” to the Lower
courts needs to be added to the Black Law
Dictionary suffering pure Domestic Terrorism,
along with violating U.S.C 18 section 242 written
after the Contrabands Slaves was Free as
American Citizens by Abraham Lincoln
Proclamation that included Petitioner Joyce
Beggs Great Grandfather around the same time
Mr. Durant finish section 242 in the U. S.
Congress. Realizing Colin Kaepernick was taking
a knee for a “Real Problem Man Was Facing”
hidden in quite corners in their Jurisdiction.
Negatively affecting Civil Rights for Black Man
Like “Said Veteran”, but all-American Man in
Petitioners Complex Cases. Even 2 male Judges
from the Virginia Beach Circuit Court as
Petitioners witness. Showing female conspiracy
made have control “Said Veteran” Attorney and
other Court Systems in Petitioners Jurisdiction.

12
Facts Of The Case
Focusing on Justice Potter Civil and Criminal
Justice Reforms will allow this Court to
certification Petitioners Questions of Law for the
needed instruction desired for Petitioners to
obtain Social Justice to restore their Liberties.
With an emergency release of “Said Veteran” &
Said Child on an Ex-Parte Order. Requiring the
entire records to be sent up from Virginia Beach
Court Systems, Newport News District Court of
Norfolk and Hampton Circuit Court to decide all
matter in controversy under the “All Writ Act” in
granting Petitioners Extraordinary Writ” to stop
female Conspiracy and plots of Domestic
Terrorism to protecting Virginia Court System of
Law under 28 U.S. Code section 2241. As
Petitioners completed their farming season to
bring forth a corrected Extraordinary Writ of
Habeas Corpus to Release “Said Veteran” for
Domestic Terrorism against a Black Republican
and her family to restore their Life and Liberties.
Showing Conspirators from Privet Officers of the
Court” had true facts said Beautiful Couple were
handling a serious War Injuries suppressed to
destroy a Black Man and a Veteran of the United
States. Suffering retaliations terroristic hardship
with help of some neighbors who misunderstood
her Research and approaches to the Hampton
City Council Meeting for a Statutes of the Hon.
Major Robert Butler to be placed at Langley
Airforce new development, and Fort Monroe’s.
Female Conspirators must give their Names to
the FBI, for a Separate Investigation.

13
Misunderstanding her fight for justice for “Said
Veteran” as a child injured by Respondent Home
Paramount Pest Control Beach of Contract to fix
a Historical Floods built by an ex-slave in the
Phoebus section of Hampton, Virginia. Giving the
Supreme Court extraordinary authority to Protect
“Said Veteran” Federal Constitutional Rights he
gave his good health for after 911 and safe
guarding his “Civil Rights” as a Proud American
Citizen and Veteran, who left the State of
Kentucky and University of Kentucky to fight for
the First Black President of the United States
after 911. Stopping the freely actions of Private
American Citizens, Attorneys and Companies
from joining conspiracy groups to support their
criminal actions toward Civil Right Laws and
Equal Justice Under law by their non-actions of
notifying the FBI Under the Patriot Act; to bring
forth Social Justice under Law. Stopping Female
Conspirators alleged actions “On One Accord”;
while “withholding evidence” before the Court of
Law. That need to be review under Federal Rule
of Evidence rule 60. (l)(2)(3)(d)1.3. Rule 60 Relief
from a Judgment or Order.
Knowing it’s a
Federal Crime to put Fraud on the Courts, citing
Bulloch v., the United States, 763 F.2d 1115, 1121
(10th Cir. 1985). As Respondent Beverly Story
from USSC No: 19-1095 may know who tampered
with Federal Evidence July 20,2016. Taken away
all Petitioners Life and Liberties, violating the
Uniform Transfers to Minors Act, Uniform Gifts
to Minors Act, and the Fifth, Sixth, Eighth, Ninth,
Fourteen Amendments, falling under the
President Bush Patriot Act.

14
Knowing our Historical State of Virginia was
the first State of the “United States” to adopt the
Bill of Rights by Virginia Founding Fathers;
Thomas Jefferson & James Madison and
Governor Patrick Henry famous Speech on
Liberty or Death in 1775. As Petitioners suffers a
slow Death being denied their Life and Liberties.
Showing the exceptional circumstance that
warrants Hon. Chief Justice Roberts and this
United States Supreme Court to exercise of their
discretionary powers to grant Petitioners
Extraordinary Writ. With needed Jurisdiction to
stop Fraud on the Court of Law. To Void all
Lower Court Orders to protection all Petitioners
Human Rights Violations that created a Sham
Plea Deal for “Said Veteran” before his attorney
was appointed. That Voided Petitioners church
members to testify that “Said Veteran Prayed for
the Late Lysa Story Personality changes at
Petitioners church before July 20, 2016 while on
assignment in Hawaii. Voiding Petitioners of
any financial relief to take care of Said Child”.
With Cruel and Unusual treatment forcing
Petitioners to pay excessive fines to “Said
Veteran” Guardian Ad Litem for their legal fees,
in Virginia Beach, in Case No: 810C117002068-00
of over $800.00 dollars for Respondent Attorney
Asha S. Pandya, A Non-Interested Party USCR
10, without notifying to this Court. As Said
Female Conspirators voided “Said Veteran” to be
present at trials; to verify his Documents of
Custody & Guardianship for “Said Child”.
Showing Female Respondents conspiracy falls

15
under Domestic Terrorism. Taken away all
Petitioners Due Process Rights U.S.C. 18 Section
371, U. S. C. 2101 (E), U.S.C. 28 Section
2254(b)(1)(B). Needing, U.S.C. 28 § 2254 - State
custody; remedies in Federal Courts to restore
“Said Veteran” Parental Rights giving custody
back to Petitioners. The same Conspiracy was
used to void Petitioners Guardianship they want
to share with Respondent Beverly Story. With on­
going concealment of “Said Veteran” Military
Static as a Proud Veteran as his Federal Military
Medical Diagnosis and True Identify removed
from the Eyes of the Police July 20, 2016, no
different than a Terrorism Groups that Places
Conspirators in highly Professional Positions; if
they play apart in Conspiracy Plots allegedly is
similar to placing terrorist cells to destroy and
causing irreparable harm.
Justice Potter Stewart Major Contributions
to Criminal Justice & Civil Rights Reform
The Honorable Justice Potter Stewart finding
under 42 section 1985(3) is the same actions by
Private Conspiracies suffered by “Said Veteran”
and all Petitioners in these complex cases that
violates their Constitutional Rights, Guaranties U.
S. Liberties and Equally. Showing the Black
Community in Petitioners Jurisdiction has
suffered from Conspirators having the power to
choose which Black Citizens enjoys Guaranties
Liberties and Rights under the Constitution and
which one to destroy by Plots of terror against
Black Americans they hate like Petitioner Joyce
Beggs who learn from the Late Jesse Helms Staff

16
and his Supporters that Republicans and
Democrats care about the Black Communities.
Citing Griffin v. Breckenridge 403 U.S. 88 (1971)
As Petitioner Beggs is just caring for all
Republicans who died for her family freedom by
studying the Contraband Slaves history and the
Honorable Major Robert Butler who gave her
Great Grandfather his first taste of freedom.
Having the love from Republicans in New Jersey
who helped the Petitioner Joyce Beggs with her
Dyslexia by sending her to Catholic School with a
free education to better society for citizens with a
learning disability and should not suffer Plots of
Domestic Terrorism destroying her children.
Said Crimes must be learned behaviors by all
Respondents “who did not know” or “did not care”
their Conspiracy of 2 or more People under the
color of law is a Federal Crimes. Worse than the
last Extraordinary Writ of Habeas Corpus citing
Ex Parte Grossman, 267 U.S. 87 (1925) and worse
than the case handled by this United State
Supreme Court Approved by Justice Sandra
Day O'Connor, Burger, White, Blackmun, Powell,
Rehnquist, Stevens in the landmark Cases for
violation of the Six Amendment citing Strickland
v. Washington, 466 U.S. 668 (1984)) That tested
the ineffective assistance on Counsel of Record,
like the actions of females’ conspirators who
allegedly planned for a Sham Defense-before “Said
Veteran” was returned from State of Utah, to
allegedly void the true facts of “Said Veteran”
Statements to Utah policeman “he was not the
Aggressor”.

17
Not even knowing how the knife got to the
bedroom July 20, 2016 as he was being Physically
Evicted while sleeping under PTSD medication
and seeing his baby hurt by the Late Lysa Story.
As female conspirators kept secret the Attorney
handling said Couple Eviction before the July 16,
2016. Kept from Police July 20, 2016. Using
Abuses of Power to control “Said Veteran”
Attorney of Record listed in this Extraordinary
Writ to Participate in a Sham Defense to
negatively affect “Said Veteran” Legal Rights to
council, to control “Said Child” Estate; supported
by a “Go Fund Me Page” may have use Petitioners
Neighbors and family member to the Daily Press
the Petitioner wanted to protect with a Historical
History from Newport News by leaking false
information July 20, 2016.
Suffering under
U.S.C. 18 section 241 & 242 needing the Research
of Justice Potter Stewart on 42 U.S.C. 1985, to
stop Continued Violations of the Patriot Act.
Needing an Extraordinary Writ of using the
“All Writs Act, 28 U.S.C. § 1651” to authorizes
Chief Justice Roberts and the Justices of this
Supreme Court to issue any Writs necessary or
appropriate to Aid Petitioners Jurisdictions to
stop all misused Virginia Beach Judges, Hampton
Circuit Court, Newport News Federal District
Court of Norfolk in Severe Conflict of Interest
plots of Conspiracy to undermind the Courts.
Whereas, only the U S Supreme Court can help
the Petitioners Jurisdiction and Save the
Beautiful City of Newport from Criminal
Conspiracy; who truly values Human Rights.

18
Private Conspirators
Private Conspirators also voided Federal
Programs and Mislead the Newport News Federal
District Court of Norfolk using Terrorist Plots of
Conspiracy to Void Petitioners access under the
Flood Insurance Act of Congress to continuing
Domestic Terrorist plots against Petitioners to
block them from qualifying for full Custody of
“Said Child” in Virginia Beach by using Beth
Roberts of GEICO Insurance Agency to hired
Cunningham Lindsey U. S. Inc from Virginia
Beach, Virginia to terrorize the Petitioners and
block recovery from flooding as their state of
Virginia faced 2 back to back storms ending with
Hurricane Mathews in 2016 as suffered by the
New Orleans and surrounding states this year of
2020. Using a Federal Program under the Flood
Insurance Act in continued plots of Domestic
Terrorism. Willfully violating TITLE VI—
Nondiscrimination of Federally Programs.
Misleading the Federal Courts to denied
Petitioners Motion for Default Justice. Forcing
them to Amending their pleading. Voided of Social
Justice, misleading a Federal Judge to believe the
Petitioners were under a “Writ Your Own
Program” under the Flood insurance Act. As
Petitioners Evidence show forth they were
covered under; the Nations Flood Insurance
Program under the Flood insurance Act. Showing
pure Bad Faith, Fraud on the Courts. Willfully
joining female Conspirators in Virginia Beach
terrorism plots against a Black Republican, to
destroy all Petitioners and Guaranties Liberties,

19
Property, Children and Family, citing United
States v. Ohio Power Co., 353 U.S. 98 (1957).
Blocking Social Justice of a Federal Program
misleading a Federal Court to stop Petitioners
from qualifying for full Custody of “Said Child” by
depriving them full coverage under the Flood
Insurance Act with violations Act of Congress.
Showing all Petitioners need Social Justice
from all Said Insurance companies: Sates Farm
Insurance, Americans Bankers Insurance
Companies and Geico Insurance agency who
clients continues retaliations that falls under the
Patriot Act should pay Punitive Damages for
supporting Badfaith Actions of their clients that
injured “Said Veteran” as a child suffering
retaliation conspiracy plots under the color of Law
by their client Home Paramount Pest Control and
repeating the same actions with Cunningham
Lindsey U. S. LLC et al. for 29 years, citing
Haddle v. Garrison, 525 U.S. 121 (1998). Just
because of hate against A Black Republican and
Violating Petitioners Federal
Her Family.
Protections under TITLE VI—Nondiscrimination
in Federally Assisted Programs.
Severe Conflict of Interest
Privet Conspirators using Severe Conflict of
Interest with Virginia Beach Judges, and Federal
Judge Arenda L. Wright Allen who over looked
Petitioners Motion for Default Judgment who did
not reply in 30 days planning Terror Plots against
Petitioners as Respondents mislead the Courts.
Shown in her in her 19-page Court Order that
Petitioners was under a WYO Policy.

20

With true facts and evidences presented by
Petitioners shows they were under NFIP. As both
Program are completely different under the Flood
Insurance Act. Wrongly Ordering the Petitioners
to Pay for Respondents Legal Bills.
As
Conspirators used the same Severe Conflict of
Interest of Christianna Dougherty-Cunningham
and Kathleen Keffer. With Keffer the Assistant
City Attorney from the Virginia Beach City
Attorney Office caused another Conflict of
Interest by adding 2 Virginia Beach Circuit Court
“Male Judge”. Adding them falsely to Petitioners
Mandamus in both Virginia Court of Appeal and
the Virginia Supreme Court that Petitioners.
Served on Privet Respondents: Paulette D.
Jenkins-Franklin, Privet Respondent Cynthia
King, Privet Respondent Beverly Story, with only
complaining about Conspirators using Privet
Social Worker Deborah Ferrell, as one Judges was
a New Judge to the Virginia Beach Circuit Court.
Who took “said child” under the Jurisdiction of
Hampton Virginia after business hours July 2016
as said females Conspiracy Terrorist plots were
developing of Irreparable damage to all
Petitioners Human Rights, fundamental fairness,
U. S. Liberties, especially to “Said Child”. Using
a social worker to take a Sick Infant to her privet
home, while destroying true factual information of
the true Identity of a Vulnerable Veteran and his
mental health treatment being “Physically
Evicted” from his sleep, saving himself and
Infant. Knowing “Said Child” who was suffering
from many health problems.

21
Extraordinary Aid for Appellate Review
under USSC Rule 20
Respondents actions terror plots Blind the
Eyes of Justice by withholding true Federal
Evidence mixed with severe Conflict of
Interest by grossly voiding Petitioners help
under the NFIP and voiding “Said Veteran”
Military Service Records and Serious Medical
condition received from the Hampton Veteran
Hospitals to cause mental tricky under the
Color of Law, to block State and Federal
Constitutional moving for the Granting
Jurisdiction for an Extraordinary Writ of
Habeas Corpus as all Petitioners suffering
retaliation from Supreme Court Case No: 06931 & 02-5307; with the same retaliation and
Plots of Domestic Terrorism.
Using the same Parental Alienation in all
cases of Federal Conspiracy to willfully
violation the Civil Rights Act. With all
Petitioners and their Children suffering the
same irreparable damages. With severe
Fraud on the Court used by Cunningham
Lindsey U.S. Inc. et al., acting with other
Respondents from Virginia Beach in USSC
19-1095. Shows exceptional circumstances
warranting this Court discretionary powers
under U.S.S.C. Ride 20 to stop all plots under
the Patriot Act as Private Insurance
Companies in these Complicated Cases did
not separate themselves for latent equity, as
pure Civil Rights Violations to the Petitioners
Needing all Companies
with no relief.
involved to provide Social Justice.

22

With Social Justice being described by
Oxford Reference Quick Reference as:
“The objective of creating a fair and equal society
in which each individual matters, their rights are
recognized and protected, and decisions are made
in ways that are fair and honest”.
Whereas Private Conspirators who were Officer
of the Courts allegedly know the Virginia Beach
Police Department Cleared “said child” to stay in
the safety of Petitioners. With some Females
Respondents knowing “Said Veteran” were a
missing Federal Patient and was attacked while
sleeping under heavy PTSD Medications under
the Name Cornelius Bobbitt at the Virginia
Giving full Custody to
Veteran Hospital.
Petitioners with visitation to Respondent Beverly
Story that is age related with both sharing
Guardianship until “Said Veteran” completes his
treatment at the Hampton Veteran Hospital.
Showing Quiet Terrorism have the Power to
undermine any City, State, Government System
of Laws, Court Room, violating the Virginia
Historical Constitution, Act of Virginia General
Assembly, Act of U. S. Congress and the United
States Constitution id not addressed will under
mind the United States of American.
As Respondents updated their Terrorism
Conspiracy to void a Presidential Executive
Orders and Federal Human Rights Laws of
misleading 3 different Court Systems in Virginia.

23

With participants in plots being rewarded with
Higher Job Placements, houses, land, readymade
businesses or get their Legal Fees paid by Good
Insurance U. S. Companies who must report said
Criminal Activities to the FBI. Being destroyed
for over 20 years, just because Petitioner Joyce
Beggs and her children received help from the
Late Senator Jesse Helms. Ending with the Late
Virginia Del. Tom Gear crossing over to the
Petitioner Joyce Beggs Republican Party in
Virginia to help his sister; The Late Attorney
Kathy Gear-Owens, an Attorney in Case No: 06931 from the Hampton Circuit Court. Suffering
plots under Title 18, U.S.C., Section 241 & 242
just because of a Misunderstanding of Joyce
Beggs Research on Contraband Slaves in Phoebus
Section of Hampton Virginia.
As said Town is
nicknamed “A Little Chicago”.
Needing Jurisdiction for an Extraordinary
Writ of Habeas Corpus relief under USSC Rule 20
to be an Aid to stop Acts of Domestic Terrorism;
needing an Ex-Parte Emergency Release Order of
“Said Veteran”. As female conspirators allegedly,
intimidation his Attorney of Record” to
maliciously canceled any chances for a Habeas
Corpus for a vulnerable Veteran of the United
States. Who gave his good health fighting in
Afghanistan for our Country after 911. Voided of
Mental Treatment for years before his Sham Plea
Deal that’s erroneous and harmful for any form of
Social Justice for Black Man. Showing said
Officers of the Court misused Chief Justice Roger
B. Taney decision; citing Ex-Parte Merryman, 17
F. Cas. 144 (C.C.D. Md. 1861) (No. 9487) as Plots
of Domestic Terrorism.

24
Done with a smile against a Trusting Christian
Hearted Family. With Females Respondents
worked hard to control “Said Veteran” Attorneys
of Record: that may have allegedly threatened his
Legal Careers for not reporting Abuses to the
FBI.
Needing this U. S. Supreme Court to
Protect the Legal and Medical Field for all forms
of Terrorism that Voided U. S. Citizens Federal
Constitutional Rights and Safety. Ending all
Chained Conspiracy that misused the Hampton
Circuit Court that ended in a Miscarriage of
Justice for Petitioners in USSC Case No: 06-931
for Retaliation to destroy Petitioners and
Children like a Chest Game. iShowing Petitioner
Joyce Beggs Research of her own Great
Grandfather footsteps on Contraband Slave
History was “Completely Misunderstood” that
caused Suffering of Terrorism and Conspiracy
that has continued for over 20 years that
Continued on July 20, 2016.
i Noting Petitioner Joyce Beggs had help of Democrats and
Republicans working together on Battered Woman
Legislation Research across the United States. Meeting
Staff from the Late Senator Jesse Helms Office “in shock
he was a nice caring person wanting to learn the Facts”
with a great Staff and Supporters caring for Petitioner
Joyce Beggs and her children. Placed in the Historical
State of Virginia for over 30 years ago in the Beautiful City
of Newport News. Who just wanting to be a Farmer; just
like her Great Grandfather who received his freedom from
Fort Monroe, as Children had goals of Homeownership, as
Counselors taught them to save their weekly Allowances
for years.

25

The Cause of Actions for Extraordinary Relief
for Irreparable Damages
Petitioners need Jurisdiction to address all
Respondents Fraud of the Courts of Virginia and
their violation of the Law of the United States
that still depriving “Said Veteran” of an President
Executive Order by maliciously canceled the
discovery of “Said Veteran” Military Background
in Afghanistan who suffered from Severe PTSD;
from the eyes of Virginia Beach, Virginia Judicial
System and Virginia Beach Police Department to
block an FBI investigation July 2016 by Abuses of
Process by female conspirators under U. S. C. 18
section 241 & section 242. Taken the Life and
Liberties from all Petitioners failing under the
Patriot Act with the help from Cunningham
Linsey et al causing Irreparable Damages to
prevent Petitioners from qualifying to have
“said child” returned to them. That forced them
to fix their own home damages from flooding in
2016 with their own saving and Loans their own
labors to quality for visitation. Using the same
terrorism suffered from State Farm General
Insurance Inc, from USSC Case No: 06-931 of 5
Million Dollars for the Irreparable Damages to
being about Social Justice to stop Female
Conspiracy under U.S.C. 18 section 241 & 241
under the Color of Law Petitioners suffered for
over 20 years. Returning “Said Child” back to the
Petitioners. Resorting all Parental Rights and
Human Rights back to “Said Veteran.” “Returning
“Said Veteran” to complete his treatments at the
Hampton Veteran Hospital by placing him with
Petitioners to completing his treatment for severe

26

“Granting “Said Veteran” Disability Benefits
filed in the VA that were strangely blocked and
denied before July 20, 2016” as he was moved out
of his bedroom to keep his family safe while
fighting the War out in his sleep. Causing “Said
Veteran” and the Late Lysa Story to suffer
finically, that added to the stress of the late Lysa
Story as a Caregiver for “Said Veteran” and “Said
Child”, loosing mental control as Petitioners
witnessing her anger and change of Personality
before July 16, 2016; trying to understand and
help. Suffering retaliation from USSC 06-931
and USSC 02-5307 they hope would stop with
Congress Passing President Buch Patriot Act, by
placing a large picture of his Mother Barbra Bush
overlooking their Home Office. As Conspiracy
continued with terrorist plots with a Veteran of
the United States, along with a New Male Judge
of Virginia Beach Court in plots against the Rule
of Law with Fraud on the Courts 2. Using Parental
Alienation because his mother approached
Virginia Senator Mark Warner to take of the Late
John McCain Research on Caregiver.
2 Said Mental Strategies used plots of Parental Alienation
to destroy many Contraband Slaves Families by assigned
neighbors to spit the family United; to take their
Properties for compensated, better jobs with illegal gifts,
trips or free services for helping in Plots of segregation
terrors under U.S.C 18 section 241 & 242 along. Having
the power to void important Black History and Properties
of Contraband Slaves. History lost when the City of
Hampton incorporated the Town of Phoebus in 1952.

27

Petitioners are Christians and do not want
prison times for Respondents; but fines of
10,000.00 from each Private Respondent that is
responsible for plots: With the United Supreme
Court having Jurisdiction to Review and stop
Private Citizens joining Criminal Conspiracy
Plots for financial gain or Professional Jobs at this
Court Discretion.
With Community Service by
cleanup Slaves Cemetery; taken the places of
Petitioner Joyce Beggs who helped in the
Community Projects by the Late Mary Christian.
With Respondents being Ordered to watch 2 hours
of “C Span” that is watched by American Citizens
and Native Americans across the United State; to
learn to respect both sides of all debates in
Congress, as Legislation becomes Laws to bring
about Social Justice. To Respect Federal
Constitutional Rights for “all” Black Americans
and Black Republicans too and all United States
Citizens Respecting all Acts of Congress.
Needing the U. S. Supreme Court to Aid in
Petitioners Jurisdictions to protect American
Citizens of all political parties, that stopped
petitioners from sharing their Mission with Bobby
Scott “Commemoration of the First African
Americans” or “the Last Mary Christian” that was
to dangerous. Just showing up to volunteers in
their projects sponsored by Community Leaders
to Protects them from Hatred as Petitioners and
their children has suffered for over 20 years by
Private Conspirators under 42 U.S.C. 1983.
Whereas only this Honorable Court can Bring
forth Equal Rights under Law and Restore all
Petitioners Life, Liberties and Human Rights
protected under the U.S. Constitution.

28

Needing the appellate powers of the U. S.
Supreme Court in these rare Complex Cases that
only survived because the Petitioners Prayed for
God Strength. Holding on to the Constitution of
the United States; as Petitioner Joyce Beggs read
her husband. Mother’s Bible in her front yard to
keep Jesus in her Pocket for the power to forgive
all female Conspirators by singing and dancing
for the Lord. Finding the strength to study as
President Abraham Lincoln by giving free
Abraham Lincoln Heirloom Tomato Seeds to their
Customers for the will power to hold on while
suffering plots of estoppel actions. Placing her
body between heavy equipment in front of her
Historical Home as a Virginia Beach Resident
tried to Build a House on a floodplain under the
Flood Insurance Act that floods the Petitioners
Historical Property without a Hampton City
Permit. Taken advances of a Black Mayor that
would have caused property damages to the
Petitioners Historical Home with no protection
from flooding. As to why the Late Senator John
McCain tried to protect the First Black President
of the United States as some Democrats crossed
over to the Petitioner Joyce Beggs Party to kill
Native American Bills in Congress. Watched with
Native American on C-span, while researching
Natives Americans for the farming secrets giving
to Contraband Slaves.
Whereas, Petitioners had shown their needed
Extraordinary Writ will be a needed aid in need of
their Court’s Appellate Jurisdiction. Meeting the
requirements for immediate determination from
this Court under U.S.S.C. Rule 20.

29
Slowly understanding Mr. Kaepernick
Peaceful Protest Mission to bring forth awareness
of this invisible very organized discrimination
problems Black man are facing from their own
Jurisdictions like the female conspirators Erasing
“Said Veteran” Military Medical History July 20,
2016 from Petitioners, the Media, Virginia Beach
Courts, and Virginia Beach Police. Needing this
court to stop the Domestic Terrorism against a
Black Republican protecting her Children,
Family, and Property. Grant Jurisdiction to
restore true Justice in the spirit of Virginia
Founding Fathers in this very rare complex
Cases. Needing extraordinary remedies under
the All Writ Act. As Petitioners Complex Cases is
very imperative for public importance.
Actual Damages Responsibility for
Cunningham Lindsey et al
Respondent Cunningham Lindsey U. S. Inc.
LLC et al is a Major Player in alleged Chain
Conspiracy under 18 U.S.C. 241 and section 242
in case No: 4:17-cv-00110. Forcing the Petitioners
to ask for protection for their Church members
and Family at the Hampton Police Station at Fort
Monroe as that officer asked why the FBI was not
involved; as they tried to explain. Needing
Financial Relief for the following. With Breach of
Contract of flooding $52,000.00 unpaid by all
Respondents. Petitioners Legal Cost for Papers,
Mailing Fee, Legal Books, Judgment of
$21,000.00. With New Federal Regulations
stating Petitioners Home needs to be elevated to
8 feet. Needine over $700,000.00.

30

With 5 Million in Punitive Damages to be paid
by Respondents and their Insurance Companies
and Agents In Case 19-1859 to bring about Social
Justice citing Haddle v. Garrison, 525 U.S. 121
(1998), for continuous suffering of blameworthy
terrorist plots of malic using conspiracy to Violate
the Laws of the United States to hurt Petitioners.
As Terror plots continues with Petitioners
spending their farming season of 2020 during the
Covid-19 crisis fighting to safeguard their
historical property from a Virginia Beach
Resident who is trying to build a house on the
floodplains of 213 South Willard Ave, in Hampton
Virginia; that pours flood waters unto Petitioners
property needing a “seawall” as describe under
the Flood Insurance Act, before any building or
development can began to protect their historical
home build by an Ex-slave. Who was the first
Black Americans to have a china cabinet built
with the hand skills of Ex-slave Names Mr. James
Kirkpatrick for his wife. Who learned fancy wood
work being truly his Master Builder. Adding to
Petitioners terror as they fight Terrorism, Breach
of Contract in Bad Faith.
With Cunningham Linsey et al, plotting for
Petitioners to sign their Fraudulent Proof of Loss
that grossly devalued their Historical Property
Value; to cause Terror by Networking with female
conspirators with the same Conspiracy in U. S.
Supreme Court Case No: 06-931. As they suffered
many years with the under reporting of their true
Flood Repair Cost history by Amanda Williams
under American Banker Insurance Company;
caused FEMA to elevate the wrong home in their
Neighborhood.

31
Protecting the City of Newport News
The Late Senator Jesse Helms help place
Petitioner Joyce Beggs in the Beautiful City
Newport News to be close to Fort Monroe after
lobbying for Battered Woman Rights and Female
Legislations. With the Love from all Political
Parties to help research her Great Grand Father
who were a Proud Farmer, getting his freedom
from Fort Monroe. With true Facts; woman from
all political parties wanted the help of all Law
Makers to understand their mission. Even giving
Love to the Senators of the word NO. But
learning the reasoning behind the word No; with
thousands of us across the U. S. working hard to
find the 10% percent of “Battered Men” victimized
by females to get their Vote, with Much Love from
their staff Members and Supporters to our
Mission. Given all members of Congress great
respect as my mother’s taught us.
Moving this Court in Granting Jurisdiction for
Petitioners Extraordinary Writ of Habeas Corpus
relief, as a needed to Aid for their Jurisdiction to
bring about Social Justice and protect the City of
Newport News Virginia Court Systems and
Citizens of this Beautiful Spirited City that also
saved the Life of Petitioner James Beggs after
Both Petitioners was poison in Virginia Beach
January 2018 after being turn down for
Emergency Medical Care from negative media
coverage. With his Wife taken him to a City of
Pure Love that saved his Life. Just to come home
from surgery facing a dog attack on the front
porch as Petitioners cat died saving his life.

32

Payer for Relief
WHEREFORE, Petitioners prays that this Court:
Enter judgment declaring all Private Female
Respondents - Attorney Paulette D. FranklinJenkins, Private Respondent-Attorney Cynthia
King, Private Respondent Attorney Asha S.
Pandya used Fraud on the Courts, Severe Conflict
of Interest and Conspiracy under USC 18 Section
242 and 241 knowing “Said Child” was taken from
Petitioners without a Court Order July 20, 2016
to undermined Virginia Beach Police Decision to
place “Said Child” with Petitioners shall be
fined up to 10,000.00 payable to the City of
Newport News Programs for Domestic Violence
and Family Programs helping men, woman and
children controlled by the Newport News Circuit
Court and Volunteering to Communities Program
as stated. With an Ex Parte Order Returning
“Said Child” & “Said Veteran” to the Petitioners;
sharing Guardianship with Respondent Beverly
Story having Weekend Visitation. Restoring
“Said Veteran” Parental Rights’ and stopping all
Domestic Terrorism Plots against all Petitioners
and their families to restore their Life, and
Liberties to total Freedom. With Females
Conspirators being ordered to removed falsified
information from “Said Child” medical records
that her mother was shot by “Said Veteran”. For
medical staff can believe Petitioners medical
concerns of “Said Child”. To correct “Said Child”
true medical condition of Gastroesphageal Reflux
Disease and serious Monophobia and Autophobia
fear of being along before school age next year.

33

WHEREFORE Petitioners prays that this Court:
Enter judgment declaring all Private Insurance
Companies and their Agents for Respondents
Cunningham Lindsey U. S. Inc. LLC Et al Case
No: 19-1895 to stopping all Domestic Terrorism
Plots and Conspiracy Plots against paying
Punitive Damages of 5 Million Dollars to
Restoring all Petitioners Life and Liberties under
the Virginia Constitution and United States
Constitution in the spirited of Virginia Late
Governor Patrick Henry “Give Liberty” from 1775
by Ordering this Court to give half of said
Punitive Damages to the Newport News Domestic
Violence Programs controlled by the Newport
News Circuit Court for destroying a Black
Republican and her beautiful children who
received Great Care, Counseling, Love and
Support from the City of Newport News. Stopping
Domestic Terrorism Petitioners suffered for over
20 years by Violating the main provisions of the
Patriot Acts “Voiding The expanded abilities of
law enforcement or the FBI to surveil and collect
“True Evidence” July 20, 2016 that would have
shown “Said Veteran” and “Said Child” was
attacked by the Late Liza Story suffering a mental
breakdown as a Caregiver; who cared for a Sick
Veteran ‘War Injuries from Afghanistan with
Severe PTSD” and a very sick infant” suffering
from Torticollis “needing a helmet” and
Gastroesphageal Reflux Disease. With no
financial support from “Said Veteran” disability
benefits and continued Domestic Terrorism
against his family for over 20 years.

34
Ordering Said Conspirators to leave Petitioners
Powerful Neighbors and Church along from
Terrorist Conspiracy to break the invisible chains
of slavery. Restoring Petitioners Freedom to
enjoy their liberties and Life. Ordering Female
Conspirators to report the unknown Conspirators
to FBI or Department of Justice. WHEREFORE
Petitioners prays that this Court: Enter judgment
declaring Respondent Cunningham Lindsey U. S.
Inc. LLC et al who are also a Major Player in
alleged Chain Conspiracy under 18 U.S.C. 241
and section 242 in case No: 4:17-cv-00110 to pay
Financial Relief for Badfaith and Breach of
Contract for all flooding Repairs and replacing
their Personal Items of $52,000.00. and covering
Petitioners Legal Cost for Papers, Mailing, Legal
Books, of $21,000.00. With 700,000.00 for New
Federal Regulations to elevated Petitioners
Home, removing Heating Vents and Heating &
Air Condition Unite under their home, to be
placed in their Attic. WHEREFORE Petitioners
prays that this Court: Ordering State Farm
Insurance Company and Home Paramount Pest
Company to Pay 1,000.00 in Punitive Damages to
Domestic Violence Victims to Newport News
Giving Petitioners Justice from Cases in the
Hampton Circuit Court that has affected a Black
Republican, and all Petitioners and children from
U. S. Supreme Court Case No: 06-931, that is now
affecting the same infant child who is now a
Veteran of the United States. Releasing “Said
Veteran” by an Ex Parte Order to continue his
treatment at the Hampton VA Hospital Order.

35
Suffering a Miscarriage of Justice, citing cite
O’Sullivan v. Boerckel, 526 U.S. 838, 845 (1999)
and Jefferson v. Gallagher, 56 Okla. 405, 150 P.
1071. Along with Brown V. Vasquez 952 F .2n
1164, 1166 (9th Cir. 1992), Dovel v. Bertram, 184
Va. 19, 22, 34 S.E.2d 369, 370 (1945).
Needing the help of the Solicitor General of the
United State to give this Court the needed
Jurisdiction to stop the Domestic Terrorism that
has destroy the Liberties and Safety of a Black
Republican destroying her family and children
who are citizens of the United States, free to
choose their own Political Parties.
Therefore, Petitioners should “not have” suffer
continued Domestic Terrorism from female
conspiracy that used American Males in these
complex cases to destroy the Life and Liberties of
all Petitioners; without their knowledge, against
Petitioners wishes by Abuses of Power and “pure
fraud on the Court: that is strong enough to
threaten their Professional Positions.
“Just because the America People wanted an
Independent President in President Trump as
they watched C-Span.org in disbelief’.
“Not understanding the Late “John McCain
Last Mission on Earth”.
“As he tried to protect the First Black
President of the United States.
WHEREFORE Petitioners prays this Court:
have the needed Jurisdiction to add the Name of
the Late Lysa Story on a section of Virginia
Senator Mark Warner Congress Bill “The
Supportive Family Caregivers Act”.

36

Said foundation of this Bill was Researched by
Lizbeth Dole and the Late Senator John McCain
with many attempts from Senator Mark Warner
from 2017. Signed by President Trump; that calls
for the Secretary of Health and Human Services
to establish a National plan to “recognize and
“Support Family Caregivers” within 18 months.
WHEREFORE
Petitioners
Prays
this
Honorable Court will have Exceptional Powers to
Aid in Petitioners Request that the “Late Lysa
Story” Name be placed over the plans that gives
support to “unmarried caregivers” “who takes
care of a Sick Veterans” before marriage who live
together, with speedy VA Disability Financial
Benefits, and ability to attend Mental Health
Counseling of all Doctors’ Appointments for
Veterans suffering for Severe PTSD or any War
injuries with the needed mental health care “for
the Caregivers”.
Conclusion
For the foregoing reasons, this Court should note
probable jurisdiction of Ex-Parte Orders and
grant for Petitioners Extraordinary Writ of
Habeas Corpus to restore all Petitioners Life and
Guarantee Liberties under Virginia and Federal
Constitution with protection under the Bill of
Rights with their Prayer for Relief supported by
Petitioner Writ of Appendix.
spectfully^libmitted.
Pro’se Ji

;gs

Erase Joyce Beggs

